WAIVER

SUPREME COURT OF THE UNITED STATES

_
| few vesey

(Petitioner) Vv. (Respondent)

 

 

 

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Tam filing this waiver on behalf of all respondents.

oO Tonly represent some respondents, I am filing this waiver on behalf of the following respondent(s):

 

 

Please check the appropriate box:

© Tam a member of the Bar of the Supreme Court of the United States, (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Lam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn; Clerk’s Office, 1 First Street, NE, Washington, D.C, 20543).

Signature: [Cathe : pe
Date: ai2o21 21

(Type or print) Name [Catherine A. Foddal

© mr. © Ms, © Mrs. O Miss

 

 

Firm [Bergen County Prosecutor's Office

Address Two Bergen County Plaza

City & State Hackensack, New Jersey

Phone [201 646- 2300 limail foddai@bepo.net _ net

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

 

 

 

 

 

\Christopher D. Thieme, pro se
ce:

 

 
